No

20-5026
'IN THE

SUPREME COURT OF THE UNITED STAT:

JAMES DANIEL ARBAUGH - PETITIONER
vs .
UNITED STATES OF AMERICA, et al. - RESPONDENTS)
®“prei

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached peti/tjjjfflq^ro:
writ of certiorari without prepayment of costs and to procee"*
pauperis.
Please check the appropriate boxes:
[ ] Petitioner has previously been granted leave to proceed in forma
pauperis in the following court(s):

[X] Petitioner has not previously been granted leave to proceed in
forma pauperis in any other court.
[ ] Petitioner's affidavit or declaration in support of this motion is
attached hereto.
[X] Petitioner's affidavit or declaration is not attached because the
court below appointed counsel in the current proceeding, and:
[X] The appointment was made under the following provision of law:
18 U.S.C. 3006A ’ or
[ ] a copy of the order of appointment is appended.

James Daniel Arbaugh

RECEIVED
JUL - 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

